No. 19A_____
IN THE

Supreme Court of the United States
ADNAN SYED,
Applicant,
v.
STATE OF MARYLAND,
Respondent.

APPLICATION FOR AN EXTENSION OF TIME TO FILE A
PETITION FOR A WRIT OF CERTIORARI
TO THE MARYLAND COURT OF APPEALS

C. Justin Brown
BROWN LAW
1 N. Charles St., Suite 1301
Baltimore, MD 21202
(410) 244-5444
brown@cjbrownlaw.com

Catherine E. Stetson
Counsel of Record
James W. Clayton
Kathryn M. Ali
Katherine B. Wellington
W. David Maxwell
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, DC 20004
(202) 637-5600
cate.stetson@hoganlovells.com

June 17, 2019

Counsel for Applicant

APPLICATION
To the Honorable John G. Roberts, Jr., Chief Justice of the Supreme
Court of the United States and Circuit Justice for Maryland:
Pursuant to Rule 13.5 of the Rules of this Court and 28 U.S.C.
§ 2101(c), applicant Adnan Syed respectfully requests a 30-day extension of
time, to and including August 19, 2019, within which to file a petition for a
writ of certiorari to review the judgment of the Maryland Court of Appeals
below.
1.

The Maryland Court of Appeals issued its decision on March 8,

2019. See Maryland v. Syed, No. 24 (Appendix A). Syed sought reconsideration, which was denied on April 19, 2019 (Appendix B). Unless extended, the
time to file a petition for certiorari will expire on July 18, 2019. This application is being filed more than ten days before the petition is currently due. See
Sup. Ct. R. 13.5. The jurisdiction of this Court would be invoked under 28
U.S.C. § 1257(a).
2.

This case presents an important question of federal law on

which state and federal courts are now divided: whether trial counsel’s failure to investigate a credible, non-cumulative, and independent alibi witness
is prejudicial under Strickland v. Washington, 466 U.S. 668 (1984).
3.

In 1999, Maryland charged Syed with the first-degree murder,

robbery, kidnapping, and false imprisonment of Hae Min Lee. Syed, however, had an alibi: classmate Asia McClain had written to Syed after his arrest

stating that she had talked to him at the library at the precise day and time
that the State alleges Lee was killed miles away. Syed v. Maryland, 181 A.3d
860, 896-897 (Ct. Spec. App. 2018). Despite Syed informing trial counsel of
his alibi and providing counsel with these letters, trial counsel failed even to
contact McClain. App. 19a-20a. Syed was convicted of all counts. Id. at 2a3a.
4.

After seeking direct review, Syed filed a petition for state post-

conviction relief. Id. at 3a. Among other claims, he alleged that trial counsel’s failure to investigate a credible, non-cumulative, and independent alibi
witness was ineffective under Strickland. Id. The trial court denied postconviction relief, holding that “although Mr. Syed’s trial counsel was deficient
for not contacting Ms. McClain, counsel’s failure to investigate Ms. McClain’s
claim did not prejudice Mr. Syed.” Id. at 5a. The Court of Special Appeals
reversed and ordered a new trial. Id. at 6a. The Court of Appeals, in turn,
reversed the Court of Special Appeals. In a 4-to-3 decision, the Court of Appeals majority concluded that counsel’s failure to investigate a credible, noncumulative, and independent alibi witness was deficient—but nevertheless
non-prejudicial. Id. at 33a.
5.

The decision below created a clear split with numerous state and

federal courts. It is directly contrary to the Connecticut Supreme Court’s
opinion in Skalel v. Comm’r of Correction, 188 A.3d 1, 37-44 (Conn. 2018),
and the Wisconsin Supreme Court’s opinion in State v. Cooks, 726 N.W.2d

2

322, 333-336 (Wis. 2006). It is also contrary to the decisions of multiple circuit courts. See, e.g., Bigelow v. Haviland, 576 F.3d 284, 289-292 (6th Cir.
2009); Brown v. Myers, 137 F.3d 1154, 1156-58 (9th Cir. 1998); Code v. Montgomery, 799 F.2d 1481, 1484 (11th Cir. 1986). Each of those courts has held
that trial counsel’s failure to investigate a credible, non-cumulative, and independent alibi witness violates Strickland’s prejudice prong. This Court’s
review is warranted to resolve this clear split, which affects Syed and numerous other defendants seeking post-conviction relief based on ineffective assistance of counsel.
6.

Syed has retained Catherine E. Stetson of Hogan Lovells US

LLP, Washington, D.C., as pro bono counsel to file a petition for a writ of certiorari. During the next several weeks, counsel is handling summary judgment briefing in Mallinckrodt ARD LLC v. Verma, No. 1:19-cv-01471
(D.D.C.), with oral argument in that case scheduled for July 23. Counsel is
also filing an intervenor brief in Atlantic Coast Pipeline, LLC v. FERC, No.
18-1224 (D.C. Cir.) on June 26; an opening brief in Apple v. United States,
No. 19-1869 (Fed. Cir.), on July 15; a reply brief in Meritor v. EPA, No. 1801235 (D.C. Cir.), on July 16; and an opening brief in Estate of Arturo Giron
Alvarez v. The Johns Hopkins University, No. 19-1530 (4th Cir.), on July 29.
Counsel assisting with the petition also are occupied with a number of other
matters, including merits briefing in McKinney v. Arizona, No. 18-1109 (due

3

July 25, 2019), and a petition for certiorari in Samarripa v. Kizziah, No.
18A1158 (due August 1, 2019).
7.

For these reasons, applicant respectfully requests that an order

be entered extending the time to file a petition for certiorari to and including
August 19, 2019.

Respectfully submitted,
RA

12
A/rt

v

C. Justin Brown
BROWN LAW
1 N. Charles St., Suite 1301
Baltimore, MD 21202
(410) 244-5444
brown@cjbrownlaw.com

Catherine E. Stetson
Counsel of Record
James W. Clayton
Kathryn M. Ali
Katherine B. Wellington
W. David Maxwell
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, DC 20004
(202) 637-5600
cate.stetson@hoganlovells.corn

June 17, 2019

Counsel for Applicant

4

